              AUDIT OF
      GSA FLEET’S PURCHASE OF
DEFENSE ENERGY SUPPORT CENTER FUEL
    FEDERAL ACQUISITION SERVICE
  REPORT NUMBER A050137/F/5/V06003
            MARCH 8, 2006
                              AUDIT OF
                      GSA FLEET’S PURCHASE OF
                DEFENSE ENERGY SUPPORT CENTER FUEL
                    FEDERAL ACQUISITION SERVICE
                  REPORT NUMBER A050137/F/5/V06003

                              TABLE OF CONTENTS

                                                           PAGE

REPORT LETTER                                                1

INTRODUCTION                                                 2

     Background                                              2

     Objectives, Scope and Methodology                       3

RESULTS OF AUDIT                                             5

     Brief                                                   5

     Finding 1- Improving Billing and Payment Procedures     5

     Management’s Response                                   6

     Finding 2- Unresolved Bills                             6

     Management’s Response                                  13

     Internal Controls                                      13

APPENDICES

     A. Management’s Response to the Draft Report           14

     B. Report Distribution                                 17
                                   AUDIT OF
                           GSA FLEET’S PURCHASE OF
                     DEFENSE ENERGY SUPPORT CENTER FUEL
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A050137/F/5/V06003

                                     INTRODUCTION

Background

This audit was initiated because GSA Fleet (Fleet) officials were seeking a more efficient
way to purchase fuel from the Defense Logistics Agency, Defense Energy Support Center
(DESC). Although Fleet purchases fuel from a number of Federal organizations, with
estimated purchases between $15 and $21 million per year from DESC, DESC is by far the
dominant provider. Additionally, the two organizations have been unable for more than four
years to establish an agreement governing the fuel purchases.

Our review focused on two related issues. The first was to identify a more effective and
efficient manner for GSA Fleet to purchase fuel from DESC. The second was to address
the long-standing problem of millions of dollars of disputed DESC fuel bills.

Under its standard lease agreement, Fleet provides fuel for the vehicles leased. Fleet’s
customers are given a Voyager charge card to fuel the vehicles at commercial gas stations.
However, many Fleet customers are Department of Defense (DOD) personnel who fuel at
DESC fueling sites. DESC fueling stations do not accept Voyager cards. DESC uses
DOD’s vehicle identification link system (VIL keys) for identifying GSA Fleet vehicles that
fuel at DOD facilities.

Voyager and DESC bill Fleet for the fuel purchased by its customers. To ensure the validity
of these billings, Fleet requires information about fuel purchases, one of the most important
being a listing of the individual transactions, including the license plate numbers of the
vehicles fueled. After verifying the billing information, Fleet pays either Voyager or DESC.
If the information provided does not pass Fleet’s review it will not authorize payment.

DESC, and its predecessor DOD organizations (e.g., the Defense Fuel Supply Center) have
procured and distributed fuel to military bases throughout the world since World War II. The
military bases originally sold the fuel to the end-users. However, starting about 1991,
DESC began expanding its ownership of aviation fuels to the point of sale to end-users as
well, and in subsequent years began expanding it to ground fuels. When the expansion is
completed, DESC will own all fuel up to the point of sale for aircraft, ships and vehicles.
Based on the point at which Fleet began experiencing difficulty with DESC billings, the
expansion to ground fuel appears to have started sometime in 2000. In other words, DESC
for the past several years has been steadily taking over the “retail” end of DOD’s fuel
distribution activity and billing Fleet for the customers fueling at DESC fueling stations on
military bases.

One of the issues is that the older DESC billings to Fleet did not contain individual
transaction listings, or the license plate numbers of the vehicles involved in the purchases.



                                             2
Prior to DESC taking over military fueling stations, regional Fleet operations and military
bases had local systems in place to record individual transactions by license plate number.
However, no agreement was reached between DESC and Fleet on how to record the
information that Fleet needs to verify the billings. As a result, DESC’s bills to Fleet did not
contain individual transaction listings, and later, individual transaction listings did not include
license plate numbers, which led to disputed bills.

Between 2000 and 2003, a large backlog of disputed bills developed. At one point in 2003,
there were hundreds of disputed bills totaling over $12 million. At the time of our audit there
were still disputed bills estimated at $1.7 million going back to this time frame, as well as
additional bills for later periods.

DESC’s current billings to Fleet are paper based and fragmented because they are
decentralized. DESC, through DOD’s Defense Financial Accounting Service (DFAS), sends
paper bills to Fleet’s regional offices. Fleet’s regional offices verify the billings and then
authorize payment. Both organizations spend excessive time and effort processing the
bills.

Objectives, Scope and Methodology

The objectives of the audit were to answer the following questions: 1) Is there a more
effective and efficient way for GSA Fleet to process Defense Energy Support Center fuel
bills; and 2) Is there some basis for resolving the disputed bills?

To accomplish our objectives, we:

   •   Visited Fleet’s Payment Processing Center in Fort Worth, Texas, and the GSA
       Finance Center in Kansas City, MO, to gain an understanding of Fleet’s fuel
       payment procedures and practices;

   •   Obtained payment listings from the GSA Finance Office and accessed on-line
       payment records;

   •   Corresponded with the Defense Finance and Accounting Service (DFAS) office
       located in Columbus, Ohio, which processes DESC’s fuel bills, DESC offices located
       in San Antonio, Texas and DESC headquarters office located at Fort Belvoir,
       Virginia;

   •   Corresponded with Fleet’s regional offices to obtain documents and information;

   •    Visited Fleet’s headquarter offices in Arlington, Virginia;

   •   Obtained, on June 9, 2005, two listings of all bills due as of the end of May 2005,
       one from the DFAS office in Columbus, Ohio, that consisted essentially of bills from
       a few days to two years old, and the other from the Director, Financial Operations,
       DESC, which included bills ranging from two to more than four years old. After




                                                3
        removing some non-Fleet billings1, the combined list contained 1,074 bills totaling
        $9,508,642, ranging in age from a few days to about 1,580 days old; and,

    •   Reviewed a sample of the disputed bills consisting of those more than six months
        old and balances due of $1,000 or more. The resulting list included 256 bills with
        outstanding balances totaling $2,864,171.

The audit was conducted from April to October 2005 in accordance with generally accepted
Government auditing standards.




1
 The list included two bills for the “GSA PUBLIC BUILDINGS SERVICE 3PFBF” totaling $642,792 that we
removed.




                                                   4
                                     RESULTS OF AUDIT

Brief

We found Fleet and DESC could establish electronic fuel billing procedures that would
reduce the time and effort spent by both on the bills, and enable much more timely
processing. However, because the two organizations have operated for more than four
years without a written agreement covering billing procedures, an initial backlog of disputed
bills totaling more than $12 million developed. Although billing and payment procedures
have greatly improved, at the time of our audit over $2 million in older bills were still being
disputed, and payment on current bills was slow.

The disputed bills need to be resolved so DESC and Fleet can reach agreement on a fuel
purchasing system. If an agreement is not reached, DESC may terminate fuel sales to
Fleet.

Our review of the disputed bills showed there may be a basis for settling many of them. If
Fleet and DESC are not able to reach agreement on the disputed bills, we believe Fleet
should refer the unresolved bills to GSA’s Chief Financial Officer.

Findings and Recommendations

Finding 1 - Improving Billing and Payment Procedures

DESC and Fleet’s fuel bill processing procedures are labor intensive because they are
paper based and widely dispersed. As a result, both organizations spend excessive time
and effort processing the bills, and Fleet has had difficulty verifying them, leading to a large
number of disputed bills. These practices have been ongoing for a number of years. A
centralized electronic billing and payment system would streamline the process, greatly
reduce the time and labor required, and enable Fleet to more closely monitor the charges.

Under the current procedures, DESC prepares electronic files that it forwards to the
Columbus, Ohio DFAS office for conversion to paper billing documents that are then
mailed to various regional Fleet offices. One electronic file lists the transaction detail that is
also shown in DESC’s Defense Fuels Automated System Enterprise Server (FES). Another
electronic file summarizes by bill number the charges by vehicle class and fuel type, and
adds any applicable taxes. Taxes are not included in the transaction detail file. The DFAS
office uses the electronic files to print an SF 1080, Voucher for Transfer Between
Appropriations and/or Funds (the bill, or invoice), and copies of the appropriate sections of
the reports, which are then mailed to Fleet offices throughout the United States and Europe.
Fleet’s regional offices then verify the paper billings and authorize payment.

Our discussions with DESC personnel indicated they could revise their procedures to
electronically send the bills with the supporting transaction detail to a central point within
Fleet. DESC could also provide the data in a format that would allow Fleet to electronically
review and summarize the bills.




                                                5
We believe Fleet could carry out a computerized review of the electronic bills most
effectively at a central location. A comprehensive computerized review of the data would
allow Fleet to quickly evaluate it for valid license plate numbers, quantities purchased, etc.
Questionable transactions could then be referred to the appropriate field offices for
resolution. Far fewer personnel and hours would be required, and field personnel would
only need to be involved with problem charges.

VIL Keys. DESC has not accepted Fleet’s Voyager card either as a payment method or as
a vehicle identification mechanism. Instead, it has relied on its vehicle identification link, or
VIL key system to identify Fleet’s vehicles for billing. A difficulty with this approach is the
bases where the fueling sites are located code the keys, not Fleet personnel or DESC
personnel. Fleet representatives cited cases of these offices miscoding VIL keys for non-
Fleet vehicles such that the charges appeared on Fleet’s bills. This should be taken into
consideration in any dispute procedures devised between Fleet and DESC.

A DESC representative stated they have been researching use of Voyager cards as a
vehicle identifier in place of VIL keys. If and when this occurs, it would eliminate most billing
disputes where the Voyager card is used because Fleet would control Voyager card coding,
not the military bases. Voyager cards are not, however, issued to Fleet vehicles in Europe.
Consequently, procedures for processing VIL key charges may still be required for
European vehicles.

Recommendations

We recommend the Commissioner, Federal Acquisition Service, have GSA Fleet:

       1.A Work with DESC to establish a written agreement:

              a. To have fuel bills, including transaction detail by license plate number,
                 transmitted electronically to a central Fleet location in a format that allows
                 Fleet to electronically review the information, and

              b. That provides a means of resolving disputed transactions.

       1.B Establish internal procedures to quickly review the bills and process them for
       payment.

Management’s Response

The Acting Commissioner, Federal Acquisition Service concurred with the finding and
recommendations in his response to the draft report. A copy of the response is provided in
Appendix A.

Finding 2 - Unresolved Bills

DESC’s and Fleet’s inability to reach agreement on billing and payment procedures has
resulted in many unresolved bills, delayed payments, and excessive time and effort spent
on the bills. It also endangers the ability of Fleet’s DOD customers to obtain fuel on military
bases, which would impact their work.


                                               6
Prior to DESC’s expansion into end-user sales, Fleet’s regional operations purchased fuel
under individual agreements established with local military bases. At that time the bases
sold the fuel to end-users. The agreements required that fuel bills include a detailed
breakout of the charges by license plate numbers. The Fleet offices used the information to
verify the validity of the charges and distribute costs.

When DESC started taking over end-user sales at base fueling sites, it did not provide
individual transaction listings, and later did not include the license plate numbers with
individual transaction listings, for many bills. Fleet did not pay many of these bills because
it could not verify the billings were for GSA vehicles alone. Once Fleet’s management
became aware DESC had taken over sales at the bases, they attempted, both through
correspondence and meetings, to establish billing procedures and a purchasing agreement
with DESC, but the two organizations were unable to reach agreement. A primary obstacle
has been the disputed bills.

Between 2000 and 2003, a large backlog of unresolved bills developed. In September
2003, Fleet paid over 500 of the bills totaling $12,267,683, but some were not paid. In its
June 9, 2005 list of unpaid bills, DESC included about $1.7 million in bills from this period.

To evaluate the nature of the unresolved bills, our review sample consisted of bills overdue
by six or more months2 with balances of $1,000 or more. Our sample totaled $2,864,172.
The bills ranged up to more than 4 years old and up to $335,946. (The remaining bills that
were older than six months but less than $1,000 each totaled $37,817. We did not review
these smaller bills.)

The data available for 2001 and 2002 bills was limited, and most were not listed on DESC’s
online server. Although many 2003 and 2004 bills were shown in DESC’s server with
transaction detail, many of the earlier listings did not include license plate numbers. The
more recent the bills, the greater the percentage with transaction details with license plate
numbers.

The following is a summary of the information found regarding the bills dated December 31,
2004 and earlier.




2
    At the time we did our sample selection, these were bills dated December 31, 2004 and earlier.


                                                              7
                              CATEGORIES                         AMOUNT        TOTALS
             Bills Fleet paid before DESC/DFAS issued
             the list of unpaid bills:                             $377,611
             Bills Fleet paid after DESC/DFAS issued the
             list of unpaid bills:                                  432,049
                                                                      Paid:      $809,660
             Bills listed with license plate numbers, and
             Red River Army Depot billings:                         287,877
             Older bills that did not include line-item detail
             by license plate numbers:                             1,306,517
             Outstanding balances of partially paid bills—
             unpaid amounts due to missing license plate
             numbers:                                               460,118
             Total reviewed                                       $2,864,172
             Bills not reviewed because of the relatively
             small individual and total value:                     $37,817
                                                                  Not Paid:    $2,092,329
                     Total shown past due on bills dated 12/31/04 & earlier:   $2,901,989

We provided the bill numbers and other details for each of these categories to Fleet in
previous correspondence and meetings. Information about each of the categories is
provided below.

Bills Paid Before List Prepared ($377,611). We found ten bills totaling $377,611 included in
the past due listings were already paid by Fleet but DFAS had not correctly recorded one
and had not recorded the others until well after the payments were issued. GSA’s Finance
Office issued payment for one on January 16, 2003, and for nine on February 24, 2005. A
DFAS representative reviewed their records and stated the January 2003 payment had not
been correctly recorded, and the February 2005 payments were recorded on June 16,
2005. These bills should no longer be an issue.

Bills Paid After List Issued ($432,049). GSA’s finance records showed Fleet paid these bills
after the DESC/DFAS list was prepared. These also should no longer be an issue.

Bills Listed with License Plate Numbers, and Red River Army Depot Bills ($287,877). With
the exception of the Red River Army Depot Bills, DESC’s computer server listed the bills in
this grouping with detailed breakouts of the charges by license plate numbers. Fleet can
use this information to verify the validity of these charges.

For fuel dispensed at the Red River Army Depot, the DFAS offices in Columbus, Ohio and
Rock Island, IL issued overlapping bills. Fleet paid the Rock Island bills, but the Rock
Island office returned the payments in February 2004. The bills from the Columbus, OH
office, the billing office for DESC, were not paid, but should be reviewed for payment. The
following is a more detailed explanation of these bills.

DESC billed Fleet for fuel purchased at the Red River Army Depot for the months of
January through July 2003 totaling $81,875, through the DFAS Office in Columbus, Ohio.
They were:



                                                       8
                    Red River Army Depot Bills Issued By DFAS, Columbus, Ohio
                                                                    FES Information
                                   Actual or Est.       Balance   Total  Questionable
               DODAAC     Bill      Billing Date          Due    Amount    Charges
                476420   DND12       1/1/2003            $11,051 $11,051       $11,051
                476420   ENE02       2/1/2003              7,184   7,184         7,184
                476420   FNE57       3/1/2003             14,218  14,197        14,197
                476420   GNE11       4/1/2003             11,316  11,316        11,316
                476420   HNE11       5/1/2003             12,780  12,780        12,780
                476420   JNE01      6/27/2003             10,634  10,634        10,634
                476420   KNE50      7/30/2003             14,692  14,692        14,692
                                                        $81,875

The Rock Island DFAS office also issued fuel bills, covering a similar timeframe, for the Red
River Army Depot dated February 27, 2003 through August 19, 2003 totaling $99,514.
They were:

                               Red River Army Depot Bills Issued by the
                                   DFAS Rock Island, Illinois Office
                          Bill No.       Bill Date  Amount Date Paid
                          CR30193         2/27/2003 $14,577 10/21/2003
                          CR30193A        3/18/2003 13,046 5/20/2003
                          CR30199B        4/22/2003 14,866         6/6/2003
                          CR30409         5/20/2003 14,208 6/16/2003
                          CR30409A        6/17/2003 13,556         7/8/2003
                          CR304409B       7/17/2003 14,057 8/15/2003
                          CR30409C        8/19/2003 15,203 9/24/2003
                          Feb. through Aug. bills        $99,514

Fleet paid the DFAS Rock Island bills. However, communications with DFAS and the GSA
Finance office disclosed that on February 13, 2004 GSA received a refund check for
$99,514 from DFAS Rock Island.

The FMC manager responsible for reviewing and processing the bills during this period
explained that DESC began listing partial information about the Red River Army Depot in its
server in 2003, and also issued bills to Fleet. However, neither the bill nor the entries in
DESC’s server showed the license plate numbers his office needed to review and process
the bills. Until DESC began posting detailed information on its server, the Red River Army
Depot provided copies of manual logs completed by drivers when they fueled at the Red
River Army Depot’s fueling sites, and billed Fleet through the DFAS office in Rock Island,
Illinois. Once the DESC server began providing the information Fleet needed, Fleet began
paying the bills submitted through the DFAS Columbus office. Since the Rock Island office
refunded the payments, Fleet should review the Columbus office bills for payment.

Older Bills that Did Not Include License Plate Information ($1,306,517). These were bills
dating back to 2001 and 2002 for which DESC did not provide the line item detail by license
plate number that Fleet needed. We compared these bills and any available documentation



                                                    9
to the documentation on file for bills that Fleet paid in September 2003. Many of the paid
bills were also from the 2001 and 2002 timeframe. Our overall analysis showed the majority
of the unpaid bills had documentation similar to the bills that were paid in September 2003.

We based our analysis on an examination of records on file at the GSA Finance Center in
Kansas City, Missouri supporting Fleet’s September 2003 payment of backlogged bills to
determine the information used to support the payments. We focused on the bills for
Europe, the Northeast and Caribbean Region, and the Mid-Atlantic Region because these
three entities had the largest concentration of outstanding bills for 2001 and 2002.

For many of the paid European bills, the only supporting data on file with the payment
documents were rollup summaries by Military Standard Requisitioning and Issue
Procedures (MILSTRIP) numbers, which showed the amount and type of fuel billed per day,
but not the vehicle license plate numbers or the individual transactions.

This was especially true for the oldest bills. For instance, the following are the six largest
bills for European fuel, paid as part of the September 2003 payment:

                                     PAID IN SEPTEMBER 2003
                                 Bill    Bill
                                 No.    Date            Amount
                                CN214 12/27/2000          $266,390
                                EN286 2/28/2001            334,587
                                FN364 3/29/2001            623,325
                                HN428   6/9/2001           736,135
                                JN634   7/8/2001           399,971
                                LN957 10/12/2001            44,733
                                                        $2,405,142

Besides the MILSTRIP rollup summaries, the only other documentation was a tally sheet
that appeared to have been prepared by Fleet personnel that divided the bill totals into
gasoline and diesel fuel subtotals.

The following 2001 bills for Europe were listed by DESC as not paid:

                               UNPAID BILLS SHOWN ON LISTING
                              Bill     Actual or Estimated   Balance
                              No.          Billing Date       Due
                             GN379         4/27/2001         $335,946
                             KN746          7/1/2001            90,967
                             KN751          7/1/2001            87,879

We were able to locate a copy of Bill Number GN379 for $335,946. It was supported with
the same type of MILSTRIP rollup summary as were the six paid bills listed above. Also,
this billing, dated April 27, 2001, seems to fall in line with the paid billings, even though no
license plate information is available. For the other two listed bills (KN746 and KN751), we
could not find any documentation of the actual bills.



                                                10
All other European bills dated December 31, 2004 and earlier shown on the DESC/DFAS
overdue bills listing were partial amounts of original bills. The bills were listed in DESC’s
online server (called the Purple Hub or FES), and the amounts withheld generally
approximated the amounts that a sort and visual evaluation of the server data indicated did
not include valid license plate numbers.

A number of Northeast and Caribbean Region and Mid-Atlantic Region bills in the
DFAS/DESC listing dating back to 2001 and 2002 were not listed in the FES.

The disputed bills for the Northeast and Caribbean Region were:


                          DESC/DFAS Information                                FES Information
                                    Estimated               Balance        Total     Questionable
                  DODAAC   Bill No. Billing Date              Due         Listed        Charges
                   4722A7  FN369     3/1/2001                $17,995      No info
                  4723AS   GN385     4/1/2001                  54,401     No info
                   4722A7  HN433     5/1/2001                  19,976     No info
                   4722A7  JN641     6/1/2001                  22,005     No info
                   4722A7  JN643     6/1/2001                  18,275     No info
                  4723AS   KN761     7/1/2001                  35,126     No info
                   4722A7  LN975     8/1/2001                  25,067     No info
                   4722A7  LN973     8/1/2001                  11,316     No info
                   4722A7  KND16     7/1/2002                  16,284    $16,284        $16,284
                  4723G4   BND04    11/1/2002                  13,290     No info
                  4723G4 CND203     12/1/2002                  27,056     11,404
                                                            $260,791


We reviewed thirty 2001 and 2002 Northeast and Caribbean Region bills totaling $597,089
paid as part of the September 2003 payment. With the exception of one bill for $26,446, the
bills contained no license plate number detail, only MILSTRIP rollup summaries. The
supporting data for the unresolved bills listed above was very similar to the data supporting
the paid bills.




3
 Bill Number CND20 was partially paid. It was originally for $38,446, but the FES only listed a total $11,404. Fourteen
dollars were deducted from this amount because “Tag G157 does not exist…,” and a total of $11,390 was paid on the bill
on September 30, 2004.


                                                          11
The disputed bills for the Mid-Atlantic Region were:

                               DESC/DFAS Information
                                   Bill   Estimated    Balance      FES
                      DODAAC      No.      Bill Date     Due        Info.
                      4733NE     GN391     4/1/2001      $13,200   No info
                      47329M     GN388    4/1/2001        13,017   No info
                      4733NE     GN390    4/1/2001        11,572   No info
                      47329M     HN437    5/1/2001        18,321   No info
                      4733NE     HN439    5/1/2001        12,560   No info
                      4733NE     HN440    5/1/2001        11,652   No info
                      4733NE     HN438    5/1/2001         7,216   No info
                      4733NE     JN649    6/1/2001        12,245   No info
                      4733NE     KN765     7/1/2001        9,924   No info
                      4733NE     KN766     7/1/2001        9,449   No info
                      4733NE     ANA83    10/1/2001       18,389   No info
                      4733NE     ANA82    10/1/2001       14,447   No info
                      4733NE     ANA81    10/1/2001        8,729   No info
                      4733NE     DNB88     1/1/2002       13,189   No info
                      4733NE     DNB87     1/1/2002        9,155   No info
                      4733NE     DNB89     1/1/2002        4,917   No info
                      4733NE     ENA43    2/1/2002        12,480   No info
                      4733NE     ENA42    2/1/2002         7,121   No info
                      4733NE     ENA44    2/1/2002         4,423   No info
                      4733NE     FNC25    3/1/2002        11,096   No info
                      4733NE     FNC28    3/1/2002        10,251   No info
                      4733NE     FNC27    3/1/2002         9,855   No info
                      4733NE     HNC74     5/1/2002        2,536   $ 30
                      4733NE     KND24     7/1/2002       14,416   No info
                      4733NE     KND23     7/1/2002        9,935   No info
                                                        $270,095

We reviewed fifty-six Mid-Atlantic Region bills totaling $920,130 paid as part of the
September 2003 payment. The bills (SF1080s) were the only documentation on file. There
were no MILSTRIP rollup summaries, detail reports, or other documentation. The data on
file for these was similar to the data available for the bills listed above.

Fleet personnel told us they used average monthly fuel consumption estimates to determine
the bills to pay in September 2003. We were unable to locate the estimates, but believe
estimates based on normal usage patterns would be a useful tool in re-evaluating the
validity of unresolved bills.

Partial Payments ($460,118). Most of the remaining outstanding bills were amounts Fleet
deducted from payments because they did not include Fleet license plate numbers. DESC
has continued to carry these as unpaid bills.




                                              12
Settling disputed bills. We believe it imperative Fleet and DESC resolve the disputed bills
and establish an agreement that minimizes the possibility of future disputes, but also
contains a mechanism to quickly resolve any that do arise.

We also believe the Director, GSA Fleet should formally correspond, either directly or
through higher GSA management, with the Director, DESC to:

       1. State the need and importance of DESC and Fleet establishing a formal fuel
          purchasing agreement, and

       2. State that Fleet is doing a comprehensive evaluation of all past due unpaid bills
          and will notify DESC of the results.

Once Fleet has completed its evaluation of the past due bills, any amounts not paid should
be formally communicated in the same manner to DESC along with the reasons why they
have not been paid. The correspondence should include a request that the Director, DESC
respond if DESC concludes they are still valid bills, along with an explanation of why DESC
reached this conclusion.

If DESC concludes they are still valid bills even though Fleet has concluded they are not,
we believe the unresolved bills should be referred to GSA’s Chief Financial Officer for
resolution with the Defense Logistics Agency Chief Financial Officer.

In the unlikely event DESC does not respond to the formal correspondence, we think it
advisable for Fleet to correspond with the Defense Logistic Agency management
responsible for DESC.

Recommendations

We recommend the Commissioner, Federal Acquisition Service, have GSA Fleet:

       2.A. Work with DESC to reevaluate and resolve the disputed bills, and

       2.B. Refer to GSA’s Chief Financial Officer any disputed bills Fleet and DESC
       cannot satisfactorily resolve.

Management’s Response

The Acting Commissioner, Federal Acquisition Service concurred with the finding and
recommendations in his response to the draft report. A copy of the response is provided in
Appendix A.

Internal Controls

Control weaknesses noted during the audit have been addressed in the report.




                                            13
                                                                            APPENDIX B


                       AUDIT OF GSA FLEET’S PURCHASE OF
                     DEFENSE ENERGY SUPPORT CENTER FUEL
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A050137/F/5/V06003

                                 REPORT DISTRIBUTION

                                                                                  Copies

Commissioner, Federal Acquisition Service (F)                                       3

Assistant Commissioner, Office of Vehicle Leasing and Acquisition Services (FF)     1

Director, GSA Fleet (FFF)                                                           1

Assistant Inspector General for Auditing (JA)                                       3

Audit Follow-up and Evaluation Branch (BECA)                                        1




                                                17
